CERTIFICATE OF SERVICE
No. 07Wendy Marie Meigs,
Petitioner
v.
Trey Bergman and Bergman ADR Group,
Respondents
I, Wendy Meigs, do swear or declare that on this date, September
2nd, 2021, as required by Supreme Court Rule 29,1 served three
copies of the enclosed Petition for a Writ of Certiorari on the
party’s counsel, by depositing an envelope containing the above
documents in the United States mail properly addressed to
counsel and with first-class postage prepaid for delivery within 3
calendar days.
The name and address of those served are as follows:
David Wayne Clawater
Attorney on Recordfor
Trey Bergman and
Bergman ADR Group
2727 Allen Parkway,
Suite 500
Houston, Texas 77019
713.650.6600
713.650.1720 Fax
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on September 2nd, 2021.
/s/ Wendy Meigs
Pro-se
3131 Blackcastle Dr.
Houston, Texas 77068
281-798-0780

